                U.S. ELECTION ASSISTANCE
                       COMMISSION
                OFFICE OF INSPECTOR GENERAL




                          FINAL REPORT:

                ADMINISTRATION OF PAYMENTS
                  RECEIVED UNDER THE HELP
                  AMERICA VOTE ACT BY THE
                        MINNESOTA
                    SECRETARY OF STATE

                 JUNE 4, 2003 THROUGH DECEMBER 31, 2007




Report No.
E-HP-MN-03-08
July 2008
                     U.S. ELECTION ASSISTANCE COMMISSION
                              OFFICE OF INSPECTOR GENERAL
                            1225 New York Ave. NW - Suite 1100
                                  Washington, DC 20005


                                                                              July 14, 2008

Memorandum

To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help
           America Vote Act by the State of Minnesota Secretary of State
           (Assignment Number E-HP-MN-03-08)

        We contracted with the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton Gunderson) to audit the administration of payments received
under the Help America Vote Act (HAVA) by the State of Minnesota Secretary of State
(Secretary of State). The contract required that the audit be done in accordance with U.S.
generally accepted government auditing standards. Clifton Gunderson is responsible for
the attached auditor’s report and the conclusions expressed therein.

        In its audit of the Secretary of State, Clifton Gunderson concluded that, except for
the state not depositing its remainder of the five percent matching share of HAVA Section
251 funding timely into the SOS’s Election Fund, our audit concluded that the Secretary of
State generally accounted for and expended HAVA funds in accordance with the HAVA
requirements and complied with the financial management requirements established by the
U.S. Election Assistance Commission. The Secretary of State also complied with section
251 requirements.

        In a June 12, 2008 response to the draft report (Appendix A), the Secretary of State
agreed with the report’s finding and recommendation, and provided documentation of its
implementation of the corrective action, which was the deposit of the matching share
shortfall and additional interest earnings into the SOS’s Election Fund.

        Please provide us with your written response to the recommendation included in
this report by August 15, 2008. Your response should contain information on actions
taken or planned, including target dates and titles of EAC officials responsible for
implementing the recommendation.

       The legislation, as amended, creating the Office of Inspector General (5 U.S.C. §
App.3) requires semiannual reporting to Congress on all audit reports issued, actions taken
to implement audit recommendations, and recommendations that have not been
implemented. Therefore, this report will be included in our next semiannual report to
Congress.

        If you have any questions regarding this report, please call me at (202) 566-3125.
   PERFORMANCE AUDIT REPORT

   ADMINISTRATION OF PAYMENTS
    RECEIVED UNDER THE HELP
AMERICA VOTE ACT BY THE MINNESOTA
       SECRETARY OF STATE

June 4, 2003 through December 31, 2007


     UNITED STATES ELECTION
     ASSISTANCE COMMISSION




                 a1
                                                 TABLE OF CONTENTS




                                                                                                                              PAGE

EXECUTIVE SUMMARY ...........................................................................................................1

BACKGROUND ............................................................................................................................2

AUDIT OBJECTIVES ..................................................................................................................2

SCOPE AND METHODOLOGY ................................................................................................3

AUDIT RESULTS .........................................................................................................................4

APPENDICES

Appendix A: Secretary Of State’s Response to Audit Results...................................................6

Appendix B: Audit Methodology................................................................................................12

Appendix C: Monetary Impact as of December 31, 2007 ........................................................14
                         U.S. Election Assistance Commission
        Performance Audit of the Administration of Payments Received Under the
                   Help America Vote Act by the State of Minnesota


EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Minnesota
Office of the Secretary of State (SOS) for the period June 4, 2003 through December 31, 2007 to
determine whether the SOS used payments authorized by Sections 101 and 251 of the Help
America Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable
requirements; accurately and properly accounted for property purchased with HAVA payments
and for program income, and met HAVA requirements for Section 251 funds for an election
fund, for a matching contribution, and for maintenance of a base level of state outlays. In
addition, the Commission requires states to comply with certain financial management
requirements, specifically:

•    Comply with the Uniform Administrative Requirements for Grants and Cooperative
     Agreements with State and Local Governments (also known as the “Common Rule”) as
     published in the Code of Federal Regulations 41 CFR 105-71.

•    Expend payments in accordance with cost principles for establishing the allowance or
     disallowance of certain items of cost for federal participation issued by the Office of
     Management and Budget (OMB) in Circular A-87.

•    Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives. Because of inherent limitations, a
study and evaluation made for the limited purposes of our review would not necessarily disclose
all weaknesses in administering HAVA payments.

Except for the State not depositing its remainder of the five percent matching share of HAVA
Section 251 funding timely into the SOS’s Election Fund, which is discussed below, our audit
concluded that the SOS accounted for and expended HAVA funds in accordance with the
requirements mentioned above. The exception needing SOS management attention is as follows:

•    As of December 31, 2007, the State’s liability for interest on its failure to timely deposit its
     matching share of HAVA Section 251 funding and to fully fund its matching share was
     estimated to be $41,315. A determination should be made of the lost interest earnings from
     the failure to deposit the full amount of state matching funds and to deposit them timely,
     and the total amount should be transferred to the election fund.


                                                 1
We have included in this report the SOS’s formal response to the finding and recommendation
dated June 12, 2008. The SOS agreed with the recommendation and has implemented corrective
action.

BACKGROUND

The Help America Vote Act of 2002 created the U.S. Election Assistance Commission to assist
states and insular areas with the improvement of the administration of Federal elections and to
provide funds to states to help implement these improvements. HAVA authorizes payments to
states under Titles I and II, as follows:

•    Title I, Section 101 payments are for activities such as complying with Title III of HAVA
     for uniform and nondiscriminatory election technology and administration requirements,
     improving the administration of elections for Federal office, educating voters, training
     election officials and poll workers, and developing a state plan for requirements payments.

•    Title I, Section 102 payments are available only for the replacement of punch card and
     lever action voting systems.

•    Title II, Section 251 requirements payments are for complying with Title III requirements
     for voting system equipment; and for addressing provisional voting, voting information,
     statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:
•     Have appropriated funds “equal to 5 percent of the total amount to be spent for such
      activities [activities for which requirements payments are made].” [Section 253(b)(5)].

•    “Maintain the expenditures of the State for activities funded by the [requirements] payment
     at a level that is not less than the level of such expenditures maintained by the State for the
     fiscal year ending prior to November 2000.” [Section 254 (a)(7)].

•    Establish an election fund for amounts appropriated by the state “for carrying out the
     activities for which the requirements payment is made,” for the Federal requirements
     payments received, for “such other amounts as may be appropriated under law,” and for
     “interest earned on deposits of the fund.” [Section 254 )(b)(1)].

AUDIT OBJECTIVES

The objectives of our audit were to determine whether the State of Minnesota, Office of the
Secretary of State:

1.   Used payments authorized by Sections 101 and 251 of the Help America Vote Act
     (HAVA) in accordance with HAVA and applicable requirements;

2.   Accurately and properly accounted for property purchased with HAVA payments and for
     program income;


                                                2
3.     Met HAVA requirements for Section 251 funds for an election fund, for a matching
       contribution, and for maintenance of a base level of state outlays.

In addition, to account for HAVA payments, the Act requires states to maintain records that are
consistent with sound accounting principles that fully disclose the amount and disposition of the
payments, that identify the project costs financed with the payments and other sources, and that
will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

4.     Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations at 41 CFR 105-71.

5.     Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87.

6.     Submit detailed annual financial reports on the use of Title I and Title II payments.1

SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SOS from June 4, 2003 through
December 31, 2007.

Funds received and disbursed from June 4, 2003 (program initiation date) to December 31, 2007
(55-month period) are shown below:

                                       FUNDS RECEIVED
      TYPE OF        EAC              STATE    INTEREST  TOTAL                         FUNDS             DATA
     PAYMENT       PAYMENT            MATCH     EARNED AVAILABLE                     DISBURSED           AS OF

       101        $ 5,313,786     $          0   $    62,925 $ 5,376,711            $    5,376,711    12/31/2007
       251         39,178,788          310,000 *   2,399,970   41,888,758               36,927,188    12/31/2007

                  $ 44,492,574    $    310,000     $ 2,462,895 $ 47,265,469         $   42,303,899    12/31/2007

* Minnesota purchased voting machines in 2002 to meet a portion of its matching requirement. Only $310,620 of
the matching requirement was remaining as of the August 24, 2004, the date Minnesota received its HAVA Section
251 requirements payment.

Our audit methodology is set forth in Appendix B.




1 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101 and 251 funds. For Section
101, reports are due on February 28 for the activities of the previous calendar year. For Section 251, reports are due
by March 30 for the activities of the previous fiscal year ending on September 30.



                                                          3
AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives. Because of inherent limitations, a
study and evaluation made for the limited purposes of our review would not necessarily disclose
all weaknesses in administering HAVA payments.

Except for the state’s failure to timely deposit the remainder of state matching funds owed into
the election fund, we concluded that the SOS accounted for and expended HAVA funds in
accordance with the requirements mentioned above. This includes compliance with section 251
requirements for an election fund and for maintenance of a base level of statewide outlays. The
SOS agreed with the recommendation and has resolved the exception described below as set
forth in Appendix A:

Interest on State Matching Funds

Minnesota established an election fund to hold Help America Vote Act (HAVA) funds in
accordance with the requirements of HAVA Section 254. The HAVA also requires that the
election fund hold the five percent State matching funds that enabled Minnesota to qualify for
federal HAVA Section 251 funds. Furthermore, interest earned from the investment of the
money in the election fund must also be deposited into the election fund. The timely deposit of
monthly interest earnings increases the election fund balance upon which each subsequent
month’s interest earnings is based, resulting in a compounding effect that adds additional funds
to the program.

Minnesota’s matching requirement was $2,062,041. In 2002, Minnesota partially met its
matching requirement by providing grants to counties to purchase voting machines. These grants
required a 50 percent match from the counties and, together with the county contributions,
totaled $1,751,421, or $310,620 less than the State matching requirement. The State
subsequently deposited $310,000 of State matching funds into its election fund, but it did not
make the deposit until June 29, 2007. This substantially met the State matching requirement, but
because the matching funds were deposited nearly 3 years after Minnesota received its federal
HAVA Section 251 funds, interest on $310,620 for nearly 3 years was not deposited into the
election fund. Furthermore, until the State transfers the deficit from the compounded interest and
the $620 principal to the election fund, the undeposited amount will continue to increase.

HAVA Section 254(b)(1) requires that the following monies be deposited into its election fund:

A.   Amounts appropriated or otherwise made available by the State for carrying out the
     activities for which the requirements payment is made to the State under this part (the State
     matching requirement of five percent of the federal HAVA Section 251 funds).

B.   The requirements payment made to the State (the federal HAVA Section 251 funds).



                                                4
C.   Such other amounts as may be appropriated under law.

D.   Interest earned on deposits of the fund.

Officials of the Office of the SOS stated that they were not aware of the shortfall in interest
accruing to the election fund during the nearly 3 years that $310,620 in State matching funds
were withheld from it.

We calculated that, through December 31, 2007, approximately $41,315 in interest and principal
(the $620 of state matching funds never deposited) is owed to the election fund for failure to
timely deposit $310,620 of the State’s matching requirement into the election fund.

Recommendation:

We recommend that the Minnesota Secretary of State ensure that monies are transferred into the
election fund that represent compounded interest lost on $310,620 from the delay in fully
funding the state matching requirement from August 2004 to July 2007 and on $620 from July
until payment is made, plus the $620 additional state matching funds that were never deposited
into the election fund. The total was calculated to be approximately $41,315 as of December 31,
2007.

SOS Response:

The Secretary of State reported that the finding had been resolved by the passage of legislation
to transfer $42,045.50, which included additional interest through the date of the transfer, from
the state’s general fund to the Help America Vote Act (HAVA) Account, and the transfer was
made on June 13, 2008 as set forth in Appendix A. The response identifies as an attachment “a
screenshot from the Minnesota Statewide Accounting system, showing the transfer of that
amount from the general fund of the State of Minnesota to the Help America Vote Act Account”,
which has not been included in this report, but was verified as providing support for the action
taken.

                       ****************************************

We provided a draft of our report to the appropriate individuals of the State of Minnesota Office
of the Secretary of State, and the United States Election Assistance Commission. We considered
any comments received prior to finalizing this report.

CG performed its work between January 14 and February 8, 2008.


a1
Calverton, Maryland




                                                5
                                                                                                                            APPENDIX A




                                           STATE OF MINNESOTA

                                     Office of the Minnesota Secretary of State

                                                   Mark Ritchie


                                                           June 12,2008

Cunis Crider
Inspector General
U.S. Election Assistance Commission
1225 New York Avenue N.W., Suite 1100
Washington, DC 20005

Dear Inspector (;eneral Crider.

Thank you for providing a copy of the Perfarrrun:e A udil &part A dnirtistratiO'l ifPaym?I1lS &:eiwi tmder the Help
Armiaz Vrxe Aa by the Miwrsaa SecJ'f!fmy ifStJ:II£. The Office of the Secretary of State greatly appreciates the
recommendations and assistance of the EAC and its agents, Oifton (;underson lLP in the audit process.

I am pleased to report to you that the only finding has been resolved by the passage and impiementation of
Laws 2008, Chapter 336, Section 9. A copy of the legislation is attached to this leuer.

The legislation pennits the Office to make the necessary transfer from the state general fund to the Help
America Vote Act (HAVA) Account. As previously noted in my lenerof March 17,2008 which is included in
the Report as Appendix A, the interest accrued because the full match was not deposited in the HAVA
Account concurrently with receipt on August 24, 2004, of the "requirements payment."

The legislation was effective the day following final enactment, and the funds transfer of the appropriate
amount of interest was made on June 13, 2008. The interest was calculated to that date by the fonnula set
forth in the anached spreadsheet. The interest calculation was verified with Joe Ansnick of Oifton
(;underson lLP, the firm engaged by the Election Assistance Commission to conduct the audit. The amount
of the interest due pursuant to the finding, and the transfer to the Help America Vote Act Account, is
$42,045.50.

Also anached is a screenshot from the Minnesota Statewide Accounting system, showing the transfer of that
amount from the general fund of the State of Minnesota to the Help America Vote Act Account.

I believe that the completed transfer remedies the finding. The Office of the Secretary of State of Minnesota
is pleased to conclude the audit by this action. The Help America Vote Act has resulted in new opportunities
in election administration. The state of Minnesota will work with the Election Assistance Commission now
and in the future to assure continued, high qualiry election administration in the state of Minnesota.

                                                                    Sincerely,      ~~                                 e
                                                                    MARK RITQ-lIE
                                                                    Minnesota Secretary of State

                180 State Office Building I 100 Rev. Dr. :-'J::utin Luther King,jr. Bh-d. I S,lint P,ml, i\lN 55155-1299

                    Phone: 651-201-1324 or l-IP7-WO-8C1H3 I l:a>.: 651-215-0682 I i\lN RebyScrvicc: 711

                               E-m<lil: secretar}r.statc@!st;ttc.mn.us I \\:'cb sire: '\vv/w.sns.stare.mn.us
                            6
 1                                     LAWS of MINNESOTA for 2008                                        Ch. 336




                                        CHAPTER 336–H.F.No. 3699

                                                  An act
       An act relating to elections; authorizing use of certain ballots; providing for discretionary
       partial recounts; specifying certain procedures; changing certain voting system
       requirements;    transferring certain funds;       amending Minnesota Statutes 2006,
       sections 203B.227, as added; 204C.35, subdivisions 1, 2; 204C.36, subdivision
       2; 206.57, by adding subdivisions; 206.89, subdivision 2; Minnesota Statutes
       2007 Supplement, section 206.57, subdivision 5; Laws 2007, chapter 148, article
       1, section 7.

BE IT ENACTED BY THE LEGISLATURE OF THE STATE OF MINNESOTA:

   Section 1.      Minnesota Statutes 2006, section 203B.227, as added by Laws 2008, chapter
190, section 9, is amended to read:
        203B.227 WRITE-IN ABSENTEE BALLOT.
       An eligible A voter who will be outside the territorial limits of the United States
during the 180 days prior to the state general election described in section 203B.16,
subdivision 1, may use a state write-in absentee ballot or the federal write-in absentee
ballot to vote in any federal, state, or local election. In a state or local election, a vote for a
political party without specifying the name of a candidate must not be counted.

        EFFECTIVE DATE. This section is effective for elections held after June 1, 2008.

     Sec. 2. Minnesota Statutes 2006, section 204C.35, subdivision 1, is amended to read:
        Subdivision 1.         Automatic recounts. (a) In a state primary when the difference
between the votes cast for the candidates for nomination to a statewide federal office,
state constitutional office, statewide judicial office, congressional office, state legislative
office, or district judicial office:
       (1) is less than one-half of one percent of the total number of votes counted for
that nomination; or
       (2) is ten votes or less and the total number of votes cast for the nomination is 400
votes or less;
and the difference determines the nomination, the canvassing board with responsibility for
declaring the results for that office shall manually recount the vote.
       (b) In a state general election when the difference between the votes of a candidate
who would otherwise be declared elected to a statewide federal office, state constitutional
office, statewide judicial office, congressional office, state legislative office, or district
judicial office and the votes of any other candidate for that office:
       (1) is less than one-half of one percent of the total number of votes counted for
that office; or




                  Copyright ©2008 by the Revisor of Statutes, State of Minnesota. All Rights Reserved.
                                                                                                                   7
 Ch. 336                              LAWS of MINNESOTA for 2008                                              2


        (2) is ten votes or less if the total number of votes cast for the office is 400 votes or
less,
the canvassing board shall manually recount the votes.
      (c) A recount must not delay any other part of the canvass.                      The results of the recount
must be certified by the canvassing board as soon as possible.
       (d) Time for notice of a contest for an office which is recounted pursuant to this
section shall begin to run upon certification of the results of the recount by the canvassing
board.
        (e) A losing candidate may waive a recount required pursuant to this section by
filing a written notice of waiver with the canvassing board.

   Sec. 3. Minnesota Statutes 2006, section 204C.35, subdivision 2, is amended to read:
       Subd.    2.    Optional Discretionary candidate recount.   (a) A losing candidate whose
name was on the ballot for nomination or election to a statewide federal office, state
constitutional office, statewide judicial office, congressional office, state legislative office,
or district judicial office may request a recount in a manner provided in this section at the
candidate's own expense when the vote difference is greater than the difference required
by this section.      The votes shall be manually recounted as provided in this section if the
candidate files a request during the time for filing notice of contest of the primary or
election for which a recount is sought.
       (b) The requesting candidate shall file with the filing officer a bond, cash, or surety
in an amount set by the filing officer for the payment of the recount expenses.                 The
requesting candidate is responsible for the following expenses:             the compensation of the
secretary of state, or designees, and any election judge, municipal clerk, county auditor,
administrator, or other personnel who participate in the recount; the costs of computer
operation,    preparation of ballot counting equipment,             necessary supplies and travel
related to the recount; the compensation of the appropriate canvassing board and costs of
preparing for the canvass of recount results; and any attorney fees incurred in connection
with the recount by the governing body responsible for the recount.
       (c) The requesting candidate may provide the filing officer with a list of up to three
precincts that are to be recounted first and may waive the balance of the recount after these
precincts have been counted.          If the candidate provides a list, the recount official must
determine the expenses for those precincts in the manner provided by paragraph (b).
      (d) If the winner of the race is changed by the optional recount, the cost of the
recount must be paid by the jurisdiction conducting the recount.
       (e) If a result of the vote counting in the manual recount is different from the result
of the vote counting reported on election day by a margin greater than the standard for
acceptable performance of voting systems provided in section 206.89, subdivision 4, the
cost of the recount must be paid by the jurisdiction conducting the recount.

   Sec. 4. Minnesota Statutes 2006, section 204C.36, subdivision 2, is amended to read:
       Subd.   2.  Discretionary candidate recounts.   (a) A losing candidate for nomination
or election to a county, municipal, or school district office may request a recount in the
manner provided in this section at the candidate's own expense when the vote difference is
greater than the difference required by subdivision 1, clauses (a) to (e).   The votes shall



                 Copyright ©2008 by the Revisor of Statutes, State of Minnesota. All Rights Reserved.
                                                                                                                    8
 3                                   LAWS of MINNESOTA for 2008                                         Ch. 336


be manually recounted as provided in this section if the requesting candidate files with
the county auditor, municipal clerk, or school district clerk a bond, cash, or surety in an
amount set by the governing body of the jurisdiction or the school board of the school
district for the payment of the recount expenses.
       (b) The requesting candidate may provide the filing officer with a list of up to three
precincts that are to be recounted first and may waive the balance of the recount after these
precincts have been counted.          If the candidate provides a list the recount official must
determine the expenses for those precincts in the manner provided by paragraph (b).
      (c) If the winner of the race is changed by the optional recount, the cost of the
recount must be paid by the jurisdiction conducting the recount.
       (d) If a result of the vote counting in the manual recount is different from the result
of the vote counting reported on election day by a margin greater than the standard for
acceptable performance of voting systems provided in section 206.89, subdivision 4, the
cost of the recount must be paid by the jurisdiction conducting the recount.

  Sec.      5.        Minnesota Statutes 2007 Supplement,                section 206.57,        subdivision 5,   is
amended to read:
       Subd. 5. Voting system for disabled voters. In federal and state elections held after
December 31, 2005; in county, city, and school district elections held after December
31, 2007; and, except as provided in subdivision 5a, in township elections held after
December 31, 2009, the voting method used in each polling place must include a voting
system that is accessible for individuals with disabilities, including nonvisual accessibility
for the blind and visually impaired in a manner that provides the same opportunity for
access and participation, including privacy and independence, as for other voters.

    Sec.   6.      Minnesota Statutes 2006, section 206.57, is amended by adding a subdivision
to read:
      Subd.    5a.    Limited town exemptions.          (a) A town conducting an election not held
in conjunction with any federal, state, county, or school district election is exempt from
the requirements of subdivision 5 if the town has fewer than 500 registered voters, as
determined by the secretary of state by June 1 of each year.
       (b) A town that would otherwise satisfy the requirements of this subdivision is
still required to comply with subdivision 5 at its next general town election if the voters
at the preceding year's annual town meeting instruct the town to conduct elections in
compliance with subdivision 5.
      (c) If the secretary of state, after consultation with the Minnesota Association of
Townships, county auditors, or other interested parties, determines that a town's share
of the cost of compliance with subdivision 5 will not exceed $150 for an election, the
town may not use the exemption under paragraph (a) and shall conduct elections under
subdivision 5.      In determining the town's cost of compliance, the secretary shall include
any expense associated with programming, ballot preparation and printing, and the
equipment costs directly related to compliance with subdivision 5.

    Sec.   7.      Minnesota Statutes 2006, section 206.57, is amended by adding a subdivision
to read:




                Copyright ©2008 by the Revisor of Statutes, State of Minnesota. All Rights Reserved.
                                                                                                                      9
 Ch. 336                               LAWS of MINNESOTA for 2008                                                   4


        Subd.    5b.  Township voting equipment study.    (a) Beginning in 2009 and at least
once every other year until 2016, the secretary of state shall consult with interested parties,
including, but not limited to, members of the legislature, town officers, county election
officials, the National Federation of the Blind, the Minnesota State Council on Disability,
and the Disability Law Center regarding:
         (1) options for full compliance with Minnesota Statutes, section 206.57, subdivision
5; and
      (2) ongoing costs of compliance with                              Minnesota      Statutes,    section     206.57,
subdivision 5, and methods of reducing those costs.
       (b) Beginning January 15, 2010, and until January 15, 2017, the secretary of state
shall report to the chairs and ranking minority members of the legislative committees
and divisions with jurisdiction over elections policy and finance regarding the findings,
discussions, and developments under paragraph (a).

   Sec. 8. Minnesota Statutes 2006, section 206.89, subdivision 2, is amended to read:
       Subd.     2.   Selection for review; notice.           At the canvass of the state primary, the
county canvassing board in each county must set the date, time, and place for the
postelection review of the state general election to be held under this section.
       At the canvass of the state general election, the county canvassing boards must select
the precincts to be reviewed by lot.       The county canvassing board of a county with fewer
than 50,000 registered voters must conduct a postelection review of a total of select at
least two precincts for postelection review.       The county canvassing board of a county with
between 50,000 and 100,000 registered voters must conduct a review of a total of select
at least three precincts for review.      The county canvassing board of a county with over
100,000 registered voters must conduct a review of a total of select at least four precincts,
or three percent of the total number of precincts in the county, whichever is greater.     The
precincts must be selected by lot at a public meeting. At least one precinct selected in each
county must have had more than 150 votes cast at the general election.
       The county auditor must notify the secretary of state of the precincts that have been
chosen for review and the time and place the postelection review for that county will be
conducted, as soon as the decisions are made.            If the selection of precincts has not resulted
in the selection of at least four precincts in each congressional district, the secretary of state
may require counties to select by lot additional precincts to meet the congressional district
requirement. The secretary of state must post this information on the office Web site.

   Sec. 9. Laws 2007, chapter 148, article 1, section 7, is amended to read:

Sec. 7. SECRETARY OF STATE                                          $               9,019,000 $               6,497,000

                    Appropriations by Fund
                                  2008                  2009
General                              6,175,000            6,497,000
Special Revenue                      2,844,000

(a) $310,000 of this appropriation must be
transferred to the Help America Vote Act


                  Copyright ©2008 by the Revisor of Statutes, State of Minnesota. All Rights Reserved.                    10
 5                                  LAWS of MINNESOTA for 2008                                        Ch. 336


account and is designated as a portion of the
match required by section 253(b)(5) of the
Help America Vote Act.
(b) $2,844,000 the first year is appropriated
from the Help America Vote Act account for
the purposes and uses authorized by federal
law.      This appropriation is available until
June 30, 2009.
(c) Notwithstanding Laws 2005,           chapter
162, section 34, subdivision 7, any balance
remaining in the Help America Vote Act
account after previous appropriations and the
appropriations in this section is appropriated
to the secretary of state for the purposes of
the account.      This appropriation is available
until June 30, 2011.
(d) The amount necessary to meet federal
requirements for interest payments and the
additional match for the Help America Vote
Act account is transferred from the general
fund appropriation to the Help America Vote
Act account.

      EFFECTIVE DATE. This section is effective the day following final enactment.




               Copyright ©2008 by the Revisor of Statutes, State of Minnesota. All Rights Reserved.
                                                                                                                11
                                                                                   APPENDIX B

                                  AUDIT METHODOLOGY


Our audit methodology included:

•    Assessing audit risk and significance within the context of the audit objectives.

•    Obtaining an understanding of internal control that is significant to the administration of
     the HAVA funds.

•    Understanding relevant information systems controls as applicable.

•    Identifying sources of evidence and the amount and type of evidence required.

•    Determining whether other auditors have conducted, or are conducting, audits of the
     program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•    Interviewed appropriate SOS employees about the organization and operations of the
     HAVA program.

•    Reviewed prior single audit report and other reviews related to the state’s financial
     management systems and the HAVA program for the last 2 years.

•    Reviewed policies, procedures and regulations for the SOS’s management and accounting
     systems as they relate to the administration of HAVA programs.

•    Analyzed the inventory lists of equipment purchased with HAVA funds.

•    Tested major purchases and supporting documentation.

•    Tested randomly sampled payments made with the HAVA funds.

•    Verified support for reimbursements to local governments (counties, cities, and
     municipalities).

•    Reviewed certain state laws that impacted the election fund.

•    Examined appropriations and expenditure reports for state funds used to maintain the level
     of expenses for elections at least equal to the amount expended in fiscal year 2000 and to
     meet the five percent matching requirement for section 251 requirements payments.

•    Reviewed/examined information regarding source/supporting documents kept for MOE
     and matching contributions.
                                               12
•   Evaluated compliance with the requirements for accumulating financial information
    reported to the Commission on the Financial Status Reports, Form SF-269, accounting for
    property, purchasing HAVA related goods and services, and accounting for salaries.

•   Verified the establishment and maintenance of an election fund.

•   Verified whether the state has sustained the state’s level of expenditures for Elections.

•   Conducted site visits of selected counties and local election authorities in St. Louis County
    to perform the following:

    − Observe equipment purchased with HAVA funds for proper accounting and
      safeguarding.
    − Test disbursement of HAVA funds for allowability and compliance.
    − Test cash receipts from SOS to ensure proper cash management.
    − Test procurement of voting equipment for competitive bid process.
    − Ensure compliance with HAVA Act.




                                               13
                                                             APPENDIX C



           MONETARY IMPACT AS OF DECEMBER 31, 2007


                                  Questioned       Additional Funds for
              Description           Costs                Program

Interest on matching funds                 $0                   $40,695

State matching shortfall                       0                    620

Totals                                     $0                   $41,315




                             14
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
